     Investigative Report
                                    Cheryl Brown Henderson


                                        Report Date: June 16, 2011
                                     Date Posted to Web: July 22, 2011




   This report contains information that has been redacted pursuant to 5 U.S.C. §§ 552(b)(6) and (b)(7)(C) of the
Freedom of Information Act. Supporting documentation for this report may be obtained by sending a written request
                                     to the OIG Freedom of Information Office.
X


                                           SYNOPSIS

We initiated this investigation after we received two complaints relating to Cheryl Brown
Henderson, founder and Executive Director of the Brown Foundation for Educational Equity,
Excellence, and Research (Foundation), a National Park Service (NPS) park partner that receives
$300,000 in annual funding from NPS. The first complaint alleged that Brown Henderson’s
selection as superintendent of the NPS Brown v. Board of Education National Historic Site
(BRVB) in Topeka, KS, created a conflict of interest because Brown Henderson previously
served as the Foundation’s executive director, and the Foundation employed her mother, sister,
and boyfriend. The second complaint alleged that Brown Henderson did not comply with a
recusal agreement that was enacted to resolve the conflict identified by the first complaint. Our
investigation substantiated both allegations.

We found that the BRVB recruitment file was disorganized and incomplete and that witness
statements about the recruitment were conflicting, which raised concerns about whether the
recruitment process complied with Federal requirements. We confirmed the existence of familial
ties between Brown Henderson and members of the Foundation, as well as a 7-year “romantic”
and “intimate” relationship with the current Foundation chief financial officer. We also
determined that Brown Henderson continued to engage in Foundation activities despite the
recusal agreement.

Brown Henderson resigned from NPS on December 31, 2010, and returned to her previous
position at the Foundation after exercising an employment right of refusal established by Brown
Henderson and the Foundation on May 28, 2010, after she accepted the BRVB position.

The U.S. Attorney’s Office in Topeka, KS, declined prosecution.

                                        BACKGROUND

The Brown Foundation for Educational Equity, Excellence, and Research (Foundation) is a
nonprofit organization formed in 1988 by the family of Oliver L. Brown, the named plaintiff in
the landmark case Brown v. Board of Education. Cheryl Brown Henderson, the daughter of
Oliver Brown, served as the Foundation’s president and chief executive officer (CEO) from its
inception until June 2010, at which time, she began her tenure as the superintendent of the
National Park Service’s (NPS) Brown v. Board of Education National Historic Site (BRVB) in
Topeka, KS. The Foundation has a cooperative agreement with BRVB to develop training
materials and curriculum guides and to assist park staff in the development of exhibits and
interpretive programming. The Foundation and BRVB are located in the same building, and
through the NPS budget, the Foundation receives $300,000 annually in financial assistance.

Prior to Brown Henderson’s official start date as the BRVB superintendent, we received an
anonymous hotline complaint on April 19, 2010, alleging that Brown Henderson’s selection for
the superintendent position would create a significant conflict of interest. The complaint stated
that Brown Henderson was related to, or had a close connection with, several employees at the
Foundation, potentially violating Federal ethics rules. The complaint specified that Brown
Henderson is in a relationship with the Foundation’s Chief Operating Officer. The Foundation



                                                                                                    1
also allegedly employs Brown Henderson’s sister, Linda Brown Thompson, and Brown
Henderson’s mother, Leola Montgomery, is a member of the board of directors.

Title 18 U.S.C. § 208(a) prohibits an employee from participating in any matter in which he, his
spouse, general partner, or minor child has a financial interest if the matter has a direct and
predictable effect on that interest. The statutory prohibition also extends to an employee’s
participation in a particular matter in which, to his knowledge, an organization in which the
employee is serving as officer, director, trustee, general partner or employee, or with whom he is
negotiating or has an arrangement concerning prospective employment has a financial interest.

5 C.F.R. § 2635.502 relates to personal and business relationships on matters in which a Federal
employee can be involved or have influence. Also known as the impartiality rule, the regulation
states that employees should not participate in any matter involving specific parties that might
affect the financial interests of a member of his household or a person with whom he has a
covered relationship. Employees can inform the agency of the conflict and seek authorization to
participate in the matter.

According to the U.S. Office of Government Ethics, a Federal employee does not have a
covered relationship with a person he is dating or with the employer of a person he is
dating, but the impartiality rule is not limited to covered relationships. Section
2635.502(a)(2) alerts employees that not just covered relationships raise appearance
issues and encourages employees to consult with the agency to address any circumstances
regarding their impartiality.

We referred this matter to NPS and the U.S. Department of the Interior’s (DOI) Ethics Office on
April 30, 2010. On May 19, 2010, the DOI Ethics Counselor sent an email to the NPS Deputy
Ethics Counselor, detailing the consequences if NPS hired Brown Henderson as the BRVB
superintendent. The DOI Ethics Counselor explained that hiring Brown Henderson presented
several concerns, including her personal relationships with Foundation employees, the
Foundation’s substantial financial reliance on NPS, and the overall appearance of a conflict of
interest. He pointed out that since 2006 the Foundation has received 76 percent to 83 percent of
its annual revenue from NPS. He opined that Brown Henderson would have a difficult time
functioning as BRVB superintendent because she would be prohibited from participating in
certain matters involving the Foundation. NPS Midwest Deputy Region Director David Given
and Midwest Region Director Ernie Quintana both received a copy of this email.

The DOI Ethics Office advised Brown Henderson to resign as president and CEO of the
Foundation before becoming superintendent to avoid violation of 18 U.S.C. § 208, “Acts
Affecting a Personal Financial Interest.” Brown Henderson resigned from her Foundation roles
effective June 12, 2010, prior to becoming superintendent. The DOI Ethics Office advised
Brown Henderson to recuse herself from official activity on matters affecting the Foundation as a
specific party to the NPS cooperative agreement.

On June 10, 2010, Brown Henderson signed a recusal memorandum prepared by officials in the
Midwest Regional Office and the DOI Ethics Office. The recusal barred her from involvement
with the Foundation either directly by her personal action or indirectly through subordinate




                                                                                                   2
employee action for 12 months. Brown Henderson agreed that she would consult with the DOI
Ethics Office prior to the conclusion of the 12-month period to determine if the recusal should
continue.

                               DETAILS OF INVESTIGATION

On July 15, 2010, we received a complaint alleging that Brown Henderson was not complying
with the recusal agreement. We referred the issue to NPS. A preliminary investigation by NPS
law enforcement supported the allegation and also found that NPS Midwest Region Director
Ernie Quintana and Deputy Region Director David Given pushed to hire Brown Henderson.

On August 30, 2010, we initiated an investigation to determine if the recruitment process for the
BRVB superintendent position complied with applicable laws, rules, and regulations and
whether Brown Henderson violated the recusal agreement by participating in matters involving
the Foundation’s cooperative agreement with NPS. Toward the conclusion of our work, Brown
Henderson resigned from her position at NPS and returned to work for the Foundation. We
expanded our case to incorporate this issue.

Recruitment for the BRVB Superintendent Position

The recruitment for the BRVB superintendent position began in December 2009. Brown
Henderson was selected for the position in April 2010. Brown Henderson officially started duty
June 13, 2010, following several weeks of discussion to resolve conflicts of interest stemming
from her employment and familial ties to the Foundation.

We reviewed the recruitment process for the BRVB superintendent position. We found that the
disorganized and incomplete state of the recruitment files, conflicting and confusing statements
of Human Resources (HR) personnel, and an alleged endorsement from U.S. Senator Sam
Brownback created an appearance that Brown Henderson was provided an unfair preference in
the process for selecting the BRVB superintendent.

Documentation initially provided to OIG showed that the vacancy was announced under two
distinct job series: a merit promotion announcement for GS-0025 (Park Manager), open only to
current Federal employees, and an open competitive announcement under GS-0340 (Park
Manager), open to all U.S. citizens. The GS-0025 announcement authorized relocation benefits,
but the GS-0340 announcement did not.

The differences between the GS-0025 and GS-0340 enabled Brown Henderson and other
applicants who were not currently employed by the Federal Government an opportunity to apply.
Under the GS-0025 qualifications standards, applicants were required to have specialized
experience in “technical, administrative, or scientific work, fish and wildlife management,
recreation management, law enforcement, or other park-related work.” The GS-0340
qualification standard required specialized experience stated as experience “equivalent to at least
the next lower grade level in the normal line of progression for the occupation in the
organization.” Though the Midwest Region and other NPS regions previously advertised
superintendent vacancies under dual series, no vacancies were open to all U.S. citizens.




                                                                                                   3
Consequently, it provided an unprecedented opportunity for all U.S. citizens, including Brown
Henderson, to apply for a superintendent position.

We asked Midwest Region HR Manager Shirley Petersen and an HR Specialist about the
recruitment for the BRVB superintendent position and the disparities between the two vacancy
announcements. Petersen stated that the Midwest Region had never before recruited a
superintendent from “all sources,” which would allow applicants outside the Federal
Government to apply. She provided a summary of recruitments conducted by the Midwest
Region since 2009, and of 13 superintendent recruitments conducted, only BRVB was open to all
U.S. citizens.

Petersen explained that offering relocation expenses for open competitive candidates was an
available option but was not required. The Midwest Region HR office decided not to offer
relocation expenses for open competitive candidates.

Petersen stated that when she reviewed the recruitment files, she found only the merit promotion
announcement for the GS-0025 series and the open competitive announcement for the GS-0340
series. Petersen said she later learned that the position was advertised as merit promotion and
open competitive for both series. She sent us copies of the four announcements. According to
Petersen, the recruitment files were incomplete and did not contain copies of all of the
announcements.

In contrast, the HR Specialist stated that the USA Staffing job announcement system listed only
the GS-0025 announcement as both merit promotion and open competitive. She surmised that the
vacancy first opened as a GS-0340 but was immediately changed to a GS-0025. We asked her
about the vacancy announcements for the GS-0340 series, and she said that any GS-0340
announcements should have been destroyed or noted in the file that the announcement changed
to GS-0025.

The HR Specialist noted that Brown Henderson could apply under the GS-0025 series because
she completed activities similar to the specialized experience noted in the announcement, which
listed a variety of duties as qualifying experience, such as managing and supervising parks, or
similar activities involving cultural and resource preservation and protection, and visitor use and
interpretation.

In addition, U.S. Senator Sam Brownback reportedly called David Given on February 4, 2010,
and urged him to consider Brown Henderson for the superintendent position. Given said he told
the Senator that Brown Henderson would receive full consideration like any other applicant.
Given stated that the Senator’s input did not have any influence on the selection decision.

Despite concerns expressed by the DOI Ethics Office and BRVB employees regarding Brown
Henderson’s conflicts of interest, Brown Henderson was appointed BRVB superintendent by
then-Midwest Region Director Ernie Quintana after another candidate declined the employment
offer.




                                                                                                  4
Brown Henderson’s Relationships

When we interviewed Brown Henderson, she stated that her mother, Leola Brown Montgomery,
was not a member of the Foundation Board of Directors and was not a Foundation employee.
Even after we showed Brown Henderson notes from a September 25, 2010 board meeting that
listed Montgomery as a member, Brown Henderson continued to deny that her mother was a
board member. She later admitted that her mother attended Foundation board meetings “because
it is her story.” Brown Henderson said her sister, Linda Brown Thompson, was a paid, part-time
Foundation employee.

Brown Henderson said the Foundation Chief Operating Officer (COO), was “a friend” with
whom she went to the movies. She said she and the COO did not live together, but they
sometimes carpooled to work. We later informed Brown Henderson that the COO described their
affiliation as an “intimate” and “romantic” relationship that began almost 7 years ago. She
replied that she defined their relationship differently and stated that their relationship was “close”
and “personal.” Brown Henderson admitted that the COO accompanied her to her son’s wedding
in Cancun, Mexico, and that they traveled to Miami, FL, together.

We interviewed the COO, who said he was responsible for the financial aspects of the
Foundation, including payroll, taxes, and day-to-day financial operations. He said he has worked
for the Foundation since June 2009. He verified that he earns $72,000 per year.

The COO told us that he had been in an “intimate” and “romantic” relationship with Brown
Henderson for over 7 years. He said he and Brown Henderson did not live together, but they
regularly carpooled to work and traveled together for business and vacations.

A Foundation Director, whose tenure ended December 31, 2010, confirmed that Brown
Henderson’s sister, Linda Brown Thompson, worked part-time for the Foundation and that
Brown Henderson’s mother, Leola Montgomery, was a non-voting, advisory member of the
Board of Directors. The Director said the COO earned about $75,000 annually as the
Foundation’s chief operating officer. The Foundation Director stated that the COO’s salary was
established before they became a director, and they believed Brown Henderson determined the
COO’s salary. The Foundation Director told us that the COO and Brown Henderson were in a
“romantic” relationship and that they spent a lot of time together.

When we interviewed Given, he confirmed that Brown Henderson’s sister, Linda Brown
Thompson, was a paid Foundation employee. He said Brown Henderson informed him that her
mother, Leola Montgomery, served as an advisor to the board. In addition, Given said Brown
Henderson told him that she had a “dating relationship” with the COO.

Given said that he and Quintana received ethics advice from DOI’s Office of the Solicitor about
selecting Brown Henderson for the superintendent position because of complaints about her
family ties to the Foundation. He said a solicitor told him that Brown Henderson’s and the
COO’s relationship was not a covered relationship unless they lived together. He said he asked
Brown Henderson if she and the COO lived together, and she told him they did not. Given said a
recusal was put in place to address Brown Henderson’s relationships with other Foundation




                                                                                                    5
employees.

Midwest Region Director Ernie Quintana confirmed that he knew that Brown Henderson’s sister
was a paid employee of the Foundation and that her mother was an unpaid member of the Board
of Directors. Quintana acknowledged that the Foundation employed the COO, but he did not
believe the relationship was a problem unless they discussed Foundation finances outside of
work. Quintana said Brown Henderson’s recusal from Foundation work was in effect, so dating
the COO was her personal decision.

Quintana stated, however, that any issues regarding Brown Henderson’s relationships with
Foundation employees must be resolved by the end of the 12-month recusal period. He explained
that it would be a problem if Brown Henderson needed to continue to recuse herself from
Foundation matters, which includes the decision-making process for Foundation funding, after
12 months.

Violation of the Recusal Agreement

The recusal barred Brown Henderson’s involvement in the current, or future, cooperative
agreement between NPS and the Foundation during the recusal period. It also precluded Brown
Henderson from directing, supervising, or evaluating the performance of any activity conducted
by the Foundation for NPS under any cooperative agreement between NPS and the Foundation.
The recusal barred her from participating in any recommendation, evaluation, decision, or other
action on matters dealing with any cooperative agreement between NPS and the Foundation.

Brown Henderson stated that based on the terms of her recusal, she could not direct or manage
the Foundation or BRVB staff in matters concerning the cooperative agreement with NPS. She
said that she had not been involved in any decision-making regarding the Foundation since she
became BRVB superintendent. She told us that the BRVB Chief of Interpretation was
responsible for the cooperative agreement. She said she explained to BRVB staff that she could
not manage any activity or direct the expenditure of funds under the cooperative agreement.

Brown Henderson said she did not discuss the recusal in detail with anyone from the DOI Ethics
Office. She said she read the recusal to make sure she understood it and could make clarifying
edits.

When we asked Brown Henderson about her attendance at Foundation meetings after becoming
superintendent, she explained that she attended board meetings because she had the “institutional
memory” and wanted to respond to any questions the board had during her transition out of the
Foundation. She said Quintana and Given told her she could attend the board meetings in an
unofficial capacity. Brown Henderson said she excused herself from the meetings when business
took place pertaining to the Federal Government.

Brown Henderson admitted that she attended the September 25, 2010 Foundation board meeting,
but she was unaware the meeting was called to address the OIG-issued subpoena. She said board
members asked if she was contacted about the investigation, and she replied that she was but did
not provide additional information. Board meeting minutes state, however, that both Brown




                                                                                                  6
Henderson and the COO reported “the scope and purpose” of our investigation to the board.
Brown Henderson told us that she only replied, “Yes,” when asked if she was contacted by our
office. She argued that her statement was not a report as indicated in the board minutes but that
she provided information pertaining to the scope and purpose of the investigation to inform the
board members of “serious implications.”

We found additional evidence of Brown Henderson’s interaction with the Foundation in
documents submitted by the Foundation to the Midwest Region requesting advance payment of
funding from the cooperative agreement. We showed Brown Henderson 12 pages of monthly
performance reports regarding Cooperative Agreement No. H6145050001. She said she
recognized the reports because they were reporting forms that NPS provided years ago. She told
us twice that she did not have access to the forms and recalled last using the forms in 2005.

We also showed Brown Henderson an operations activity report from the monthly performance
reports for October 1 – 31, 2010, and explained that the documents were filed by the Foundation
to the Midwest Region for reimbursement. She said she did not know who completed the
October forms and said she did not deal with the daily Foundation work.

We informed Brown Henderson that the property codes for the October operations activity report
revealed that on November 2, 2010, Brown Henderson was the last person to modify the
document. Brown Henderson explained that the COO may have used her computer, which would
explain why her name was referenced as an editor. She elaborated that the COO ate dinner at her
home, and he used her computer while she cooked. She said she did not see him working on the
report. Brown Henderson reiterated that she did not engage in any activities with the Foundation
and did not direct the activities of any employees.

Given stated that Brown Henderson signed the recusal agreement on June 10, 2010. The
agreement detailed Brown Henderson’s assurances that as superintendent, from June 13, 2010, to
June 12, 2011, she would not participate in any matter involving specific parties where the
Foundation is, or represents, a party to the matter.

Given said the recusal established the BRVB Chief of Interpretation as the employee responsible
for negotiating with the Foundation on the terms of the cooperative agreement and for ensuring
that Brown Henderson complied with the recusal agreement. Given said neither he nor Quintana
provided a copy of the recusal to the BRVB Chief of Interpretation.

Given said NPS Deputy Director Dan Wenk questioned if Brown Henderson would retaliate
against the BRVB Chief of Interpretation because of his responsibilities to oversee her
interactions with the Foundation. Given said he felt BRVB and the Foundation shared similar
goals, and he did not believe Brown Henderson would have reason to resent the BRVB Chief of
Interpretation.

Ernie Quintana said he did not anticipate as much concern about Brown Henderson as was
expressed. He said the DOI Ethics Office advised him and Given to rescind Brown Henderson’s
offer. He responded that he did not want to take the “easy way out” because hiring Brown
Henderson was a great opportunity, so the ethics office advised putting a recusal agreement in




                                                                                                    7
place.

Quintana explained that the recusal prohibited Brown Henderson from dealing with any financial
issues relating to the Foundation for a 12-month period. He said Brown Henderson could interact
with Foundation members on setting programming priorities, such as where to focus efforts in
the coming years, as long as an issue did not involve financial discussions. He said Brown
Henderson reviewed the recusal letter, then signed and agreed to it, along with the NPS Midwest
Regional office and the Washington, DC, office.

Quintana verified that the cooperative agreement between BRVB and the Foundation was due
for renegotiation, but negotiations were put on hold pending the selection of a new
superintendent, who traditionally led such negotiations. He said the BRVB Chief of
Interpretation replaced Brown Henderson in funding negotiations because of the unavoidable
conflicts of interest involved.

Quintana opined that the recusal agreement served to remind Brown Henderson to avoid
discussion of Foundation finances. Quintana acknowledged, however, that neither the BRVB
Chief of Interpretation, BRVB, nor Foundation employees saw the recusal agreement, so they
would not be able to assist Brown Henderson in avoiding recusal violations. He said the Midwest
Region should have better informed the BRVB Chief of Interpretation and other employees
about the limits of Brown Henderson’s interaction with the Foundation.

When we informed Quintana that Brown Henderson was attending Foundation board meetings,
he said he did not give her authorization to attend, but he was not concerned as long as she did
not make decisions regarding Foundation finances. He opined, however, that Brown Henderson
should have stayed away from the meetings considering the recusal and the scrutiny of her
relationships with the Foundation.

We interviewed the BRVB Chief of Interpretation, who opined that an inherent conflict of
interest existed with Brown Henderson moving from the Foundation to NPS. He said that after
NPS selected Brown Henderson for the BRVB superintendent position, Given called him to
explain that Brown Henderson signed a letter of recusal and that the BRVB Chief of
Interpretation would be responsible for financial negotiations with the Foundation. He said
Given did not explain the details of the recusal but said that Brown Henderson recused herself
from working directly with the Foundation.

The BRVB Chief of Interpretation said the arrangement surprised him because the recusal
shifted a majority of superintendent duties to him, which he felt would be awkward. He
explained that the recusal prohibited Brown Henderson from engaging with the Foundation, so it
required the BRVB Chief of Interpretation to oversee the Foundation’s work, which included
drafting a new cooperative agreement.

The BRVB Chief of Interpretation said he received verbal guidance from Given and Quintana
regarding his role with the Foundation, but he did not receive written guidance. He also said he
had never seen a copy of the recusal letter for which he was responsible to ensure compliance
until August 18, 2010, when NPS investigators conducted initial interviews into the allegation




                                                                                                   8
against Brown Henderson.

The BRVB Chief of Interpretation said that he was responsible for overseeing Brown
Henderson’s compliance with the recusal even though he was never provided the details of the
agreement. He said Brown Henderson visited the Foundation office almost daily, and he often
reminded her that she had to comply with the recusal.

During his interview, the COO told us that he knew of Brown Henderson’s recusal but never
received a copy. He said he never discussed the recusal with Brown Henderson, but he knew that
the recusal lasted 1 year and barred her from directing or administering any Foundation
activities.

We asked the COO if he and Brown Henderson discussed Foundation business during personal
time. He responded that they might discuss issues such as conferences that Foundation members
might attend or how Foundation workers were organizing a conference.

The COO said he was first required to complete the financial monthly performance reports to
submit to the Midwest Region in November 2010. He explained that NPS mandated the reports
in order for the Foundation to receive funding under the current cooperative agreement. He said
the documents had to be submitted for every funding request.

The COO told us he first learned the forms existed in October 2010 when the Midwest Region
Contracting Officer informed him that the forms were required to support the Foundation’s
request for reimbursement. He said he located reports filed during the previous superintendent’s
tenure and reviewed and updated those documents for the current reimbursement and advance
requests. The COO said Brown Henderson did not provide input on completing the reports.

According to the COO, Brown Henderson did not have much involvement with Foundation
business. He said Foundation employees might contact Brown Henderson to locate a file or to
ask who to call to deal with a particular situation or issue. When we asked if Brown Henderson
approved programming and pamphlets set up by the Foundation, the COO said superintendents
always approve all documents produced by the Foundation that pertain to NPS.

A Foundation Director took on the work that Brown Henderson previously performed. We asked
her if she and Brown Henderson established an agreement that Brown Henderson would
continue to run the Foundation while she served as the face of the organization. The Foundation
Director replied, “Absolutely not. And, in fact, I have had two conversations in the opposite
direction and to say, ‘Cheryl, stop it. You cannot do that. You’re not with the Foundation.’”

She explained that Brown Henderson wanted to be more involved with the response to the OIG
subpoena than was appropriate. The Foundation Director stated that Brown Henderson wanted to
help formulate the Foundation response plan. The Foundation Director said she told Brown
Henderson that she could not be involved and told her, “I’m the Director. You’re no longer with
the Foundation. As painful as it may be, take your hands off the wheel.” The Foundation
Director did not think that Brown Henderson’s attempts to be involved with the response were




                                                                                                   9
deliberate or malicious, but that Brown Henderson has such inherent emotional connections to
the Foundation that it is hard for her to remain uninvolved.

The Foundation Director said Brown Henderson visited the Foundation office 2 to 4 times each
week and often met the COO for lunch. She stated, however, that she never witnessed any
problems with Brown Henderson’s transition from the Foundation to NPS.

The Foundation Director explained that when issues arose at the Foundation that she could not
resolve, she talked to Brown Henderson for “historical” and “procedural” information. She
commented that Brown Henderson has certain Foundation knowledge that no one else has. She
said Foundation employees consulted with Brown Henderson for clarification and historical
information less and less because the Foundation Director was learning more about the specifics
of the position.

The Foundation Director said she knew of Brown Henderson’s recusal agreement and believed
that it precluded Brown Henderson from participating in decisions regarding the Foundation,
supervising Foundation personnel, and engaging in the day-to-day business.

The Foundation Director told us that she attended every board meeting and that the last board
meeting was held October 30, 2010. She recalled that there was an emergency board meeting in
September 2010 due to the subpoena. The Foundation Director said Brown Henderson attended
this meeting “as a private citizen.” She noted that Brown Henderson felt she was the center of the
inquiry, so she wanted the board to know how she felt. According to the Foundation Director,
after Brown Henderson provided the background, she left the meeting and did not hear the
board’s deliberations. She recalled that Brown Henderson stayed for about 30 minutes of the 2
½-hour meeting.

The Foundation Director said Brown Henderson also attended the October board meeting and
stayed for the first 20 minutes. She said Brown Henderson attended “as a private citizen” and to
report on the progress of the investigation. The Foundation Director said Brown Henderson
informed the board that the Foundation retained an attorney. The Foundation Director informed
us that the Foundation retained a second attorney, from Hogan Lovells in Washington, DC.

We showed the Foundation Director three financial documents that the Foundation sent to the
Midwest Region to support requests for funding reimbursements and advances. She said she
recognized the documents. She said she could not explain the differences between the three
documents but saw them when the COO filled them out. The Foundation Director did not know
if Brown Henderson helped prepare the documents for submission to NPS.

The Program Coordinator for the Foundation, stated that she regularly interacted with BRVB
Superintendent Brown Henderson because the cooperative agreement between NPS and the
Foundation stipulated that any materials the Foundation sent out on behalf of BRVB had to be
proofread by BRVB staff. She explained that she routinely designed documents, inserted the
wording, and then took them to Brown Henderson for review. The Program Coordinator said that
at times, the Foundation Director would ask for a particular document, but she and Foundation
staff would inquire with Brown Henderson about it first. The Program Coordinator said she




                                                                                               10
became aware of Brown Henderson’s recusal only recently, but she had never seen the document
and did not know its terms.

When we asked, the Program Coordinator said she was aware that Brown Henderson attended
the Foundation board meetings. According to the Program Coordinator, Brown Henderson
attended as a civilian.

Brown Henderson’s Resignation

After concluding fieldwork for our investigation, we learned that Brown Henderson resigned as
BRVB superintendent. She informed the BRVB staff on December 1, 2010 that her resignation
would become effective at the end of December 2010. We also learned that after Brown
Henderson announced her resignation, she contacted the Midwest Region Contracting Officer
and asked her to postpone scheduled negotiations relating to the Foundation cooperative
agreement with NPS until early January 2011 when Brown Henderson resumed her position as
executive director of the Foundation.

We received a copy of Brown Henderson’s resignation letter, dated December 6, 2010. Brown
Henderson stated that her last day as BRVB superintendent would be December 31, 2010.

In February 2011, the Foundation provided several documents in response to a new subpoena
relating to Brown Henderson’s re-employment with the Foundation. Among the documents was
a copy of an employment agreement that Brown Henderson and the Foundation established on
May 28, 2010, after Brown Henderson accepted the BRVB position. Written as “Official
Memorandum” regarding “Future Employment Under First Right of Refusal,” the agreement
extended to Brown Henderson the right to return as the executive director at the Foundation at
her discretion.

We also identified two letters from Brown Henderson, dated October 22, 2010, and November
26, 2010, in which she exercised her right to return to the Foundation as the executive director.
In both letters, Brown Henderson indicated that she would return to the position on January 3,
2011.

In late February 2011, we interviewed Brown Henderson and several Foundation board members
regarding Brown Henderson’s return to the Foundation. Brown Henderson admitted that she
wrote a transition memorandum, dated May 28, 2010, and the “Right of Refusal” at the request
of the Foundation board members. According to Brown Henderson, the board valued her
knowledge and experience relating to the Foundation, so they wanted to enable her to return in
the future. When asked if the document represented her intent to return to the Foundation, Brown
Henderson repeatedly insisted that her intent was to “respond to the Board’s request to write the
‘Refusal’ agreement.” Though Brown Henderson would not state that the “Right of Refusal” was
an employment contract, the transition memo indicated that “an employment contract has been
provided.”

Brown Henderson stated that she began considering her resignation from NPS in October 2010
due to “the burdensome nature of the complaints.” She said she felt the missions of both BRVB




                                                                                                    11
and the Foundation were not being met.

Brown Henderson said she decided in November 2010 to resign from NPS. Brown Henderson
said an NPS Ethics Official requested that she fill out a post-Government employment survey.
She said she did not read the second document included with the survey, which discussed ethics
rules regarding post-Government employment. Brown Henderson said she did not receive ethics
advice regarding post-Government employment despite receiving this document.

She stated that she returned to the Foundation at a lower rate of pay than when she left –
approximately $50,000 annually versus $72,000 annually – because that’s what the Foundation
could afford. Brown Henderson said there was no agreement in place that would increase her
salary to $72,000 annually over time. She stated that the COO retained his annual salary of
$72,000 because he assumed many of her executive director responsibilities when she
transitioned to NPS. According to Brown Henderson, although she returned to the position, she
would not resume those responsibilities and would take on other priorities.

We interviewed four members of the Foundation Board of Directors. The board members knew
of the first right of refusal agreement between Brown Henderson and the Foundation. One of the
Board of Directors said she believed that having such an arrangement created an opportunity, not
a conflict of interest. Another Director said the agreement did not seem unusual to him because
refusal rights are a common practice in the academic community.

The U.S. Attorney’s Office in Topeka, KS, declined prosecution of this case.

                                         SUBJECT(S)

Cheryl Brown Henderson, Executive Director, Brown Foundation for Educational Equity,
Excellence, and Research, and former BRVB Superintendent.

                                         DISPOSITION

We are providing this report to the Assistant Secretary for Fish and Wildlife and Parks for any
administrative action deemed appropriate.




                                                                                                  12
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
